<html>
<title> - FISCAL YEAR 2021 STRATEGIC FORCES POSTURE HEARING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                   

                         [H.A.S.C. No. 116-67]

                                HEARING

                                  ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON
 
           FISCAL YEAR 2021 STRATEGIC FORCES POSTURE HEARING

                               __________

                              HEARING HELD
                           FEBRUARY 27, 2020


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-408                      WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                    SUBCOMMITTEE ON STRATEGIC FORCES

                    JIM COOPER, Tennessee, Chairman

SUSAN A. DAVIS, California           MICHAEL R. TURNER, Ohio
RICK LARSEN, Washington              JOE WILSON, South Carolina
JOHN GARAMENDI, California           ROB BISHOP, Utah
JACKIE SPEIER, California            MIKE ROGERS, Alabama
SETH MOULTON, Massachusetts          MO BROOKS, Alabama
SALUD O. CARBAJAL, California        BRADLEY BYRNE, Alabama
RO KHANNA, California                SCOTT DesJARLAIS, Tennessee
WILLIAM R. KEATING, Massachusetts    LIZ CHENEY, Wyoming
KENDRA S. HORN, Oklahoma, Vice 
    Chair
                         Leonor Tomero, Counsel
                Sarah Mineiro, Professional Staff Member
                           Zach Taylor, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Anderson, Dr. James H., Performing the Duties of Under Secretary 
  of Defense for Policy, U.S. Department of Defense..............     1
Raymond, Gen John W., USSF, Commander, United States Space 
  Command........................................................     3
Richard, ADM Charles A., USN, Commander, United States Strategic 
  Command........................................................     4

                                APPENDIX

Prepared Statements:

    Anderson, Dr. James H........................................    32
    Cooper, Hon. Jim, a Representative from Tennessee, Chairman, 
      Subcommittee on Strategic Forces...........................    31
    Raymond, Gen John W..........................................    41
    Richard, ADM Charles A.......................................    58

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
           FISCAL YEAR 2021 STRATEGIC FORCES POSTURE HEARING

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                       Washington, DC, Thursday, February 27, 2020.
    The subcommittee met, pursuant to call, at 2:55 p.m., in 
room 2212, Rayburn House Office Building, Hon. Jim Cooper 
(chairman of the subcommittee) presiding.
    Mr. Cooper. The subcommittee will come to order.
    I apologize for the 20-minute delay, but I appreciate 
having such distinguished witnesses before the subcommittee.
    We face a high-class problem. You have been kinder to the 
programs under our jurisdiction, the President's budget, than 
perhaps we expected or deserved, but we look forward to hearing 
the justification.
    So the first witness will be Dr. Anderson.
    Let me ask too, by unanimous consent we will not only 
accept our honorary member, Mr. Lamborn, for questioning after 
subcommittee members have asked their questions, but ask 
unanimous consent that any member's opening statement be 
inserted for the record.
    The ranking member, Mr. Turner, do you have an opening 
statement?
    Okay. Dr. Anderson.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 31.]

 STATEMENT OF DR. JAMES H. ANDERSON, PERFORMING THE DUTIES OF 
   UNDER SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF 
                            DEFENSE

    Dr. Anderson. Okay. Chairman Cooper, Ranking Member Turner, 
and distinguished members of the committee, thank you for the 
opportunity to testify.
    Today the United States faces an increasingly complex 
global security environment in which the central challenge to 
our prosperity and security is reemergence of long-term 
strategic competition by revisionist powers in the PRC 
[People's Republic of China] and Russia. At the same time we 
must be prepared to counter the clear and present dangers posed 
by rogue regimes such as North Korea and Iran. Each of these 
competitors confronts us with unique and overlapping 
challenges, and our strategic forces--nuclear, space, and 
missile defense--offer critical capabilities necessary to meet 
these challenges.
    Nuclear deterrence is the Department's highest priority 
mission. Our deterrence is the foundation and backstop of our 
national defense. It underwrites every U.S. military operation 
around the world and provides extended deterrence guarantees to 
over 30 allies and partners.
    Effective deterrence requires tailored strategies supported 
by flexible capabilities, capabilities that reside in the 
nuclear triad. This committee is well aware of the age of its 
triad systems and the challenge that the Department faces in 
sustaining these systems as we proceed with modernization, 
modernizing U.S. nuclear forces after decades of deferred 
recapitalization.
    Last fiscal year Congress funded 98 percent of DOD 
[Department of Defense] budget requests for nuclear force 
modernization, operations, and sustainment. We appreciate the 
support and request continued support.
    The fiscal year 2021 budget request for nuclear forces is 
$28.9 billion or roughly 4.1 percent of the total DOD budget 
request. Modernization, recapitalization of our nuclear forces 
is about 1.7 percent of the total DOD budget request.
    Funding these critical requirements ensures that modern 
replacements will be available before the Nation's legacy 
systems reach the end of their service lives and we lose them 
all together.
    Turning to space systems, they underpin virtually every 
weapon system in our arsenal. But many of them were designed in 
an era when there were few threats in space. This is not the 
case today. The PRC and the Russian Federation both seek to be 
able to deny the United States and our allies the advantages of 
space. The United States is responding to this threat by 
transforming our space enterprise, fielding resilient 
architectures, developing space warfighting expertise, and 
working closely with allies in combined operations.
    I want to acknowledge and recognize the bipartisan 
leadership role that this subcommittee played over several 
years to establish the United States Space Force as a sixth 
branch of the Armed Forces and to make this historic step 
possible.
    The President's fiscal year 2021 budget request provides 
$18 billion for space programs, including $111 million to 
support stand-up of the new service. In addition to the Space 
Force, the President's budget also provides for funding of the 
new Space combatant command, U.S. Space Command, and the Space 
Development Agency which will accelerate the development and 
fielding of military space capabilities.
    Turning to missile defense. As adversary missile technology 
advances, the threat to the United States homeland, allies and 
partners, and our forces in the field has become increasingly 
dynamic and difficult to predict. While traditional fixed and 
mobile ballistic threats continue to grow, adversaries are also 
investing in ground, air, and sea launch cruise missiles, as 
well as hypersonic weapons with diverse ranges.
    Adversaries are incorporating these missile technologies 
into their strategies to coerce and intimidate the United 
States and its allies by threatening critical homeland targets, 
our ability to reinforce allies in crisis or conflict, and our 
ability to project power.
    To address these challenges, the United States is focused 
on a layered defense with adaptable systems. U.S. policy is to 
stay ahead of rogue-state missile threats while relying on 
nuclear deterrence to address the large and more sophisticated 
Russian and PRC ICBMs [intercontinental ballistic missiles].
    Within this framework the 2019 Missile Defense Review 
centers our policy on, one, defending the homeland, military 
forces abroad, allies and partners; two, mitigating against 
adversary coercive threats and attacks; three, assuring allies 
and partners, preserving the freedom of action; and four, 
hedging against future unanticipated threats.
    In conclusion, I want to thank the subcommittee for the 
opportunity to testify and its support to our strategic forces. 
Along with our allies and partners we must ensure that we have 
the capabilities needed, both now and in the future, to protect 
our people and the freedoms we cherish, and to be able to 
engage potential adversaries diplomatically from a position of 
strength.
    To do so I urge you to support the important capabilities 
funded in the President's fiscal year 2021 budget request.
    I look forward to your questions. Thank you.
    [The prepared statement of Dr. Anderson can be found in the 
Appendix on page 32.]
    Mr. Cooper. I thank the witness.
    General Raymond.

   STATEMENT OF GEN JOHN W. RAYMOND, USSF, COMMANDER, UNITED 
                      STATES SPACE COMMAND

    General Raymond. Chairman Cooper, Ranking Member Turner, 
and members of the subcommittee, it is an honor to appear 
before you today. I have had the privilege of testifying in 
front of this subcommittee on many occasions. However, this is 
my first opportunity to appear since taking command of the 
United States Space Command in August of 2019 and being 
appointed the Chief of Space Operations for United States Space 
Force this past December. I am truly honored and humbled by 
this responsibility.
    On behalf of the joint space professionals that I am 
privileged to lead, I would like to thank you for your 
leadership, personally thank you for your leadership, in 
helping elevate space to a level commensurate with its 
importance to our national security and the security of our 
allies.
    We have the best in the world at space today and with this 
historic establishment of a new armed service and combatant 
command we are even better, and we need to be, as we are laser 
focused on meeting the requirements of the National Defense 
Strategy. Both China and Russia continue to build and modernize 
their space capabilities. They are building capabilities for 
their own benefit, while also building capabilities to deny us 
the military and economic advantages that the United States and 
its allies have enjoyed for decades, an advantage that is 
eroding.
    As I have testified to in the past, the scope, scale, and 
complexity of the threat in space is real. It is growing and it 
is concerning. We can no longer assume that our space 
superiority is a given. If deterrence fails, we must be ready 
to fight for space superiority; we are today, and with the 
establishment of the United States Space Command and the Space 
Force we will be tomorrow. To this end, U.S. Space Command will 
deter aggression from conflict and do so from a position of 
strength. Accordingly, we will remain ready to defend U.S. and 
allied freedom of action in space.
    We will deliver space combat power for the joint coalition 
force, and we are going to develop joint warfighters to serve 
in, from, and through the Space Command. Since the 
establishment of United States Space Command we have 
strengthened our integration with our combatant command 
warfighting partners, informed the global integration needed to 
carry out the National Defense Strategy, advanced our 
partnership with our allies, and have strengthened our voice 
and requirements.
    I am proud of the joint space warfighters that I am 
privileged to lead. I assure you these professionals are 
approaching our mission with an eager and innovative boldness 
that will assure America remains the world leader in the space 
domain.
    It is an honor also to be here today and testify with 
Admiral Richard and Dr. Anderson. I look forward to your 
questions.
    [The prepared statement of General Raymond can be found in 
the Appendix on page 41.]
    Mr. Cooper. Thank you, General. Before I introduce Admiral 
Richard, I want to note that this is the second Alabaman in a 
row to head STRATCOM [United States Strategic Command]. So 
congratulations and long may that tradition continue.
    Admiral Richard.

  STATEMENT OF ADM CHARLES A. RICHARD, USN, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    Admiral Richard. Good afternoon, Chairman Cooper, Ranking 
Member Turner, and distinguished members of the committee. It 
is an honor to be here today alongside General Raymond and Dr. 
Anderson. And it is a privilege to represent the 150,000 men 
and women performing United States Strategic Command's missions 
every day.
    I would like to start by thanking Congress for your support 
ensuring that the Department and STRATCOM have the required 
resources to execute our mission to deter strategic attack and 
guarantee the security of our Nation and our allies. Continued 
congressional support, budget stability, on-time 
appropriations, are fundamental assumptions for a long-view 
approach to defense and allow our command to realize 
Presidential and Department guidance.
    The proposed fiscal year 2021 budget supports irreversible 
implementation of the National Defense Strategy, meets our 
current operational requirements, and outpaces the growing 
existential threats we face. I want to come back to that point. 
I want to note that the commitments are necessary, because this 
Nation faces an existential threat.
    Today's security environment is the most challenging we 
have seen since the Cold War. Both Russia and China are 
investing considerable resources to advance and expand their 
arsenals and nuclear and conventional forces while adopting an 
increasingly assertive posture at the expense of accepted 
international norms and rules and at the expense of our Nation 
and our allies. All while North Korea and Iran continue to 
conduct malign activity, fostering regional instability, 
defying international norms and threatening the United States, 
our allies, and our partners.
    I want you to know, as global warfighters, the forces under 
my command are ready to respond decisively should deterrence 
fail. A powerful ready triad, survivable nuclear command, 
control, and communication systems, and the supporting 
infrastructure are the foundation for strategic deterrence and 
assurance. These capabilities are fundamental to our survival 
as a Nation and underpins the Department's strategy to conduct 
global all-domain operations that communicate the strength of 
our alliances, the credibility of our forces, and a willingness 
to act decisively to protect our vital interests in the time 
and place of our choosing. Strategic deterrence is an active 
mission and I do operations every day to ensure we have a safe, 
secure, and effective deterrent. Nevertheless, our Nation is at 
a critical juncture regarding the future of our nuclear forces.
    Over 40 years ago our leaders made wise decisions to 
recapitalize our strategic capabilities that we have benefited 
from to this day. Since the end of the Cold War, we have led 
the world in reducing the numbers and types of nuclear weapons 
in our arsenal, while at the same time our adversaries went in 
the other direction and expanded their capabilities.
    It is now our generation's turn to make the same wise 
investments required to deter nuclear use in future great power 
war for the next few generations. If we do not invest smartly 
in our nuclear enterprise now, we may begin to reach points of 
no return. And I predict they will start in the nuclear weapons 
complex, next in the nuclear command and control, and finally 
in the triad delivery systems.
    It may result in our need to rebuild nearly from scratch 
over one or more decades our enterprise talent and 
infrastructure required to be a nuclear power. We must continue 
the Department's number one priority to recapitalize our 
nuclear forces and strengthen homeland defense.
    Know that our Department's proposals do not pursue parity 
with our adversaries' arsenals or seek a new arms race or 
provide a qualitative and comprehensive approach towards a 
viable deterrent for the future at a time of increasing 
threats.
    Our command is focused on maintaining a safe, secure, and 
effective deterrent, and providing tailored strategies in 
coordination with our fellow combatant commanders to meet our 
responsibilities to the Nation. We are ready to be tested and 
continue to look for solutions to strengthen military readiness 
and increase lethality. This includes continuing the seamless 
transition of space operations to General Raymond and the 
United States Space Command.
    I am grateful for your continued support which will aid in 
developing the future force necessary to execute the 
Department's highest priority mission.
    Thank you for the opportunity to be here today and I also 
look forward to your questions.
    [The prepared statement of Admiral Richard can be found in 
the Appendix on page 58.]
    Mr. Cooper. Thank you, Admiral.
    Thank you, gentlemen.
    I am going to withhold most of my questions for the 
classified session which will be held immediately afterwards in 
2337.
    I yield now to the ranking member, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Admiral Richard, we have been able to have some discussion 
of the activities that Russia has undertaken for its nuclear 
arsenal that go well beyond modernization. We use the term 
modernization frequently when we talk about what Russia has 
done, but in fact they are fielding absolutely new weapons with 
new and complete unforeseen capabilities.
    The Avangard with its hypersonic capabilities which is 
deployed. The weapon that has been deployed in violation of the 
INF [Intermediate-Range Nuclear Forces] Treaty. Their 
development of Skyfall, where recently we just saw an accident, 
where they developed a missile that is itself not just a 
nuclear weapon but also nuclear powered. And Poseidon, where 
they are looking at a weapon that would go under the ocean 
unmanned.
    Before we go into classified session, I wanted to give you 
an opportunity in the public session because we are going to 
have a significant debate of our investment into the NNSA 
[National Nuclear Security Administration]. There has been a 
significant increase in the NNSA's funding, which has been 
needed and necessary if we are going to modernize ours--and we 
are not trying to do what Russia has done, we are not going to 
create new nuclear weapons. We are only undertaking the 
modernization of our current capabilities. We have to invest in 
the infrastructure to be able to do that. Otherwise, our 
deterrent won't remain credible.
    Could you take a moment in a very public session and give 
us that picture of what our adversaries are doing and why that 
is a real threat.
    And then secondly, why there is a must in our current 
efforts to modernize our nuclear enterprises, our triad. And 
what you see as to the importance of why Congress needs to step 
up now to ensure you have in the future the capabilities that 
you currently have. Admiral.
    Admiral Richard. Thank you, Ranking Member Turner. To 
summarize, and I will go into more detail in the classified 
session.
    Mr. Turner. Admiral, I just want to make it clear, telling 
us in classified session does not help Congress have a debate 
to be able to conclude budgetary issues. It informs us as to 
what you know, but the debate on the budget happens in public 
and it will be contested.
    So your statements in public are as much as important as 
the ones that you are going to make in private. In private you 
will inform us and make certain that we understand the 
capabilities and issues. But in public, that is where your 
language and your words will be entered into our debate.
    Admiral Richard. Thank you, sir.
    So let me summarize. Right. I would characterize what 
Russia is doing with her strategic and nuclear forces as an 
explosion in capability. Right? They started long ago. They 
started in 2006 and it goes beyond a mere, if you will, 
recapitalization or renewal of their triad. It is everything 
that Russia has, it is an enormous number of nontreaty 
accountable weapons. These are sometimes referred to as 
nonstrategic.
    It is actually--and it is not only the weapons themselves, 
it is the delivery systems that they use. It is actually 
probably easier to list the ones Russia has that are not dual 
capable, i.e., conventional and nuclear, than to list the ones 
that are, because they almost all are.
    On top of that, you mentioned the new capabilities that 
they are developing: hypersonic glide, nuclear powered cruise, 
undersea unmanned nuclear powered.
    But sir, it goes beyond that, right? They have new command 
and control. They have new warning systems. They have new 
doctrine. They are exercising a level that we haven't seen 
before. They even do civil defense. Right? That is a concept 
the United States abandoned back in the early sixties. So this 
is a very comprehensive approach that Russia is undertaking. 
And in many cases with Russia, you have to look at what they 
do, not necessarily what they say.
    I will draw you an equivalent picture on China, except that 
China doesn't tell you about it. Russia will tell you exactly 
what they are doing and why, China does not. But they are also 
rapidly expanding their capabilities. And a particular concern 
to me is the fact that what they are doing is inconsistent with 
their stated no-first-use policy and a more general, minimum 
deterrent strategy. And while they are very opaque and they 
don't speak about it very frequently, they will have all the 
same capabilities that Russia has, giving them all the same 
options.
    And then to your final point is why now? When we talk about 
the modernization of the triad, what we leave out is the ``or 
else.'' And the other choice that we have is not to keep what 
we have. The entire triad is reaching the end of its useful 
life. And so either we replace what we have now or we start to 
divest almost on a path to disarmament in the face of this 
growing threat.
    Mr. Turner. Admiral, Russia has publicly announced that it 
has deployed hypersonic capable weapons, named I think the 
Avangard is certainly the name we have given it. Why does that 
weapon concern you?
    Admiral Richard. Well, it concerns me for a couple of 
reasons. One, it is a--you correctly stated that they have a 
hypersonic glide vehicle, that challenges our warning 
capability. And we not only base our active defenses on that 
but I base our posture and response on that as well. Ranking 
Member, what I back up, is remember, Russia didn't have to do 
that. Right? That was a choice by their part. China is right 
behind them in terms of those capabilities.
    So in the face of our restraint and in the face of our 
delaying our recapitalization to the last possible moment that 
is a great example of going in the exact opposite direction.
    Mr. Turner. Would you consider these weapons provocative?
    Admiral Richard. They are certainly unhelpful to me in 
terms of my mission set. It is an additional threat that I am 
required to work through the strategic deterrence equation in 
order to defend this Nation.
    Mr. Turner. So while they deploy these weapons that have 
new capability, brand new weapons, what is the danger if we 
allow our current capabilities then to decay or degrade?
    Admiral Richard. We went through a Nuclear Posture Review 
and determined that we needed tailored strategies for each of 
our adversaries. And I think that was a wise stack of 
decisions. The triad is what gives me the capabilities. It is 
the inherent flexibility in the triad that enables me to 
execute those strategies. If we don't modernize, I don't have 
those capabilities anymore. I am at the part where I will have 
to take the triad apart, if we don't do that. Thankfully, we 
had wise leaders in the past that gave me a triad to be able to 
take apart. But that means fundamentally I can't execute the 
strategy.
    There is a number of aspects to that. One important one to 
mention is the extended deterrence and assurance of commitments 
that this Nation provides. Without those capabilities I am 
concerned about the pressure on nonproliferation that will 
occur.
    Mr. Turner. There are some that say the W93 is a new 
nuclear weapon. It is not a new weapon. Admiral, answer the 
question as to a critic that would say that undertaking the W93 
is a new weapon, why it is not.
    Admiral Richard. The W93 I think that is one of those 
things that makes me proud to be an American. Right? That we 
can come up with a program of record like the W93, it uses 
existing designs. It will use existing stockpile components----
    Mr. Turner. Okay, so that means that there is no new pit, 
right? There is not a new nuclear weapon inside this.
    Admiral Richard. It will use existing--right now I need an 
ability in general to be able--we need to get to 30 and 
regenerate the ability to have pits for any of the weapons. 
That is it's own constraint right now. But the W93, remember 
that is my requirement for the reason that I am very pleased to 
see that the Department is taking these steps. This will enable 
me to address the simultaneous age-out of both weapons inside 
the submarine-launched ballistic missile leg. It will enable me 
to redress the imbalance that we currently have inside that 
leg. It has--it will be parallel developed with the United 
Kingdom's efforts in using existing partnership arrangements. 
And it will be vital to their maintenance and continuation of 
their continuous at-sea deterrence.
    Mr. Turner. Thank you.
    General Raymond, Secretary Esper yesterday spoke of the 
National Air and Space Intelligence Center [NASIC] at Wright-
Patterson Air Force Base which he had just toured and the 
importance of its contribution overall to our national 
security. I know you two are very familiar with their 
operations. And as we go to stand up Space Force, there is 
obviously throughout the entire DOD enterprise individuals who 
wonder whether or not their job is moving, or whether or not 
they are moving, or whether or not they will have a job.
    The Secretary has said that he wants to ensure that we 
don't duplicate efforts, that we don't diminish our current 
capabilities and capacities. I wonder if you might speak for a 
moment about the importance of NASIC's overall contributions to 
national security and our intelligence community?
    General Raymond. Yes, sir. Thank you for the opportunity.
    NASIC has provided excellent technical intelligence for the 
space domain for years. We rely on them very, very heavily. I 
will tell you the current strategic environment that was 
outlined by Admiral Richard applies to space as well. And the 
need for increased intelligence across the board--foundational, 
technical, acquisition intelligence--is increasing. And so as 
we build the Space Force and U.S. Space Command, I don't think 
anybody should be worried about a job or a growth industry. And 
I would suggest that we don't want to break something. We want 
to build on something to enhance it.
    Mr. Turner. General, thank you very much. I yield back.
    Mr. Cooper. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Admiral Richard, did you say our current 
policy is one of disarmament unless we do all the new things 
you want done? Is that what I heard you say?
    Admiral Richard. I didn't say that that was our current 
policy. What I will give you is the operational implications of 
our decisions, yes.
    Mr. Garamendi. I don't understand what that means. If we 
continue as we are with the safe, secure, reliable, the 
development of the B-2, B-21, LSRO [Long Range Standoff Weapon] 
and other delivery systems, is that disarmament?
    Admiral Richard. I was answering the question if we don't 
choose to do that. The existing systems we have only have 
finite lifetimes and they require replacement, which will 
require a commitment by this Nation to the resources and 
leadership to replace them. That is my point, sir.
    Mr. Garamendi. Okay. Are we in the process of replacing?
    Admiral Richard. We are just at the beginnings of the 
programs that will be the replacements for the current systems 
inside the delivery triad.
    Mr. Garamendi. I see. You said that the W93 is or is not a 
new weapon?
    Admiral Richard. The W93 is a new program of record that 
uses existing designs----
    Mr. Garamendi . Wait, wait, wait, wait, wait.
    Admiral Richard [continuing]. To address a need that I 
have.
    Mr. Garamendi. Let's answer the question. Is it a new 
weapon? It is a new program of record. Is it a new weapon?
    Admiral Richard. It is a--it is a new program of record, 
sir.
    Mr. Garamendi. I see. Is it a new weapon then?
    Admiral Richard. I am going to go back to it is a new 
program of record. We are just now starting the program.
    Mr. Garamendi. Okay. This dance is getting us nowhere. Does 
it use a new pit?
    Admiral Richard. It hasn't been designed yet, sir. So we 
have to go do the designs to answer that question. You know, we 
have to ask first to start the program before we can answer 
some of these questions.
    Mr. Garamendi. Why then are we going to build 80 pits a 
year beginning in 10 years?
    Admiral Richard. That is necessary overall inside the 
weapons complex to refurbish the entire stockpile.
    Mr. Garamendi. Those will only be used for the existing 
weapons and the LEP [life extension program] of existing 
weapons?
    Admiral Richard. I am sorry. Your question again, sir?
    Mr. Garamendi. My question is, what do you intend to do 
with the 80 pits a year that are supposed to be or the 30 then 
80 pits a year that are to be produced in the next 15 years?
    Admiral Richard. So actually this is a very good point. 
They are used overall in the refurbishments of the weapons that 
we have. And this is a good example of one of the points of no 
return that I am talking about. In terms of in NNSA's funding 
is right at the minimum to maintain.
    All the Nation has is an ability right now to refurbish 
existing weapons. If we drop funding, we push the front of a 
pipeline back that then spills back into the back of the 
pipeline showing up, and you get to a point--my point here is, 
you can't recover. And you can't get a bigger pipe in less than 
10 years no matter much money you spend. That is the basis of 
the 80 pit per year requirement.
    Mr. Garamendi. So what do you intend to use them for?
    Admiral Richard. Refurbishment of our existing weapons, 
sir.
    Mr. Garamendi. Which weapons?
    Admiral Richard. The whole stockpile, sir. It is all of 
them.
    Mr. Garamendi. That is new news. So you are saying that the 
new pits that are to be produced will be used to replace the 
existing pits in existing weapons. Is that what I heard you 
say?
    Admiral Richard. Sir, that is NNSA's stockpile 
modernization plan.
    Mr. Garamendi. Okay. Well we will have a meeting with the 
NNSA and we will ask them that question too.
    So the W93 is a new program of record, but is not a new 
weapon.
    Admiral Richard. Again, the W93 is a new program of record. 
It is done to address an imbalance in the strategic leg. It 
doesn't require new testing. It is not a new design.
    Mr. Garamendi. Okay. I am going to yield back my time.
    Mr. Cooper. Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here. Your answers to Mr. Turner I thought were 
direct and sobering answers, so thank you for that.
    You know, Minuteman III is already 47 years old and in the 
depot where the maintenance work is done on them, some of the 
engineers are actually going to eBay to find spare parts, which 
is not actually a joke. It unfortunately happens.
    So let me ask some really simple questions, basic questions 
about GBSD [Ground Based Strategic Deterrent] if I possibly 
could. I guess, Admiral, let me start with you.
    There are some people, analysts that are saying that dyad 
is enough, that we could do this with bombers and submarines. 
If you were to maintain the same level of readiness and 
deterrence, and you only had a dyad, would you be forced to buy 
new bombers, new submarines?
    Admiral Richard. Congressman, maybe if I could, two points. 
One, that depot you were talking about for the Minuteman III, I 
think that is a credit to the Department of Defense and the Air 
Force. And it shows you the lengths we have gone to to maintain 
these systems. That weapon system wasn't designed to have a 
depot. That weapon system was designed to be in service for 10 
years. And the fact that the Air Force figured out how to 
retrofit in a depot maintenance process into that is an 
extraordinary engineering accomplishment and shows you that it 
is a credit to what the service is trying to do.
    To your answer, look I could give you a specific thing on 
attributes you lose. But if you take the triad apart, I can't 
execute tailored deterrent strategies. That is it in a 
nutshell. And I would have to come back with a different way to 
go do what the President and the Secretary have told me to do.
    Mr. Bishop. So it wouldn't necessarily be cost efficient to 
do that?
    Admiral Richard. It certainly wouldn't be cost efficient.
    Mr. Bishop. Or if you were to say--when people are saying 
let's wait for this until we have less strife that we are put 
on, less pressure put on the Air Force budget. If we were to 
wait 3 to 5 years, that would not be necessarily more cost 
effective?
    Admiral Richard. Sir, it certainly wouldn't be more cost 
effective. And the bottom line is I wouldn't have the 
capabilities necessary to execute the tailored strategies the 
Nuclear Posture Review calls for.
    Mr. Bishop. Okay, let's assume then that since these are 
old weapon systems--I am still talking about the missile 
system. There is a natural deterioration, there is attrition 
that comes along with that. If we were not to go forward with 
the GBSD program, if we were to delay it in any way, shape, or 
form, how would our adversaries perceive that force reduction?
    Admiral Richard. It certainly works to their advantage. 
Again, it takes away our capability. You are quite correct, the 
systems will age out and start to attrite. It is true for 
Minuteman III, it is true for all the missile systems in triad.
    Mr. Bishop. And would it make it easier or more difficult 
to do any kind of arms reduction treaties in the future?
    Admiral Richard. We would be doing an arms reduction 
ourselves.
    Mr. Bishop. Unilateral.
    Admiral Richard. Yes, sir.
    Mr. Bishop. Well, you would probably win that one then.
    I am making the assumption that we have had 45 years--there 
are people talking about just doing a life extension for these 
45-year-old missiles. I am assuming that in the 10 years you 
have been working on this issue that all those criteria, all 
those factors have been factored into the system before you 
have made your decision?
    Admiral Richard. Congressman, that is absolutely correct. 
We are well past the point of diminishing returns and cost 
effectiveness to not replace the Minuteman III.
    Mr. Bishop. So in 30 seconds could you just remind me of 
the purpose for the new system in the first place?
    Admiral Richard. The purpose for the GBSD, right, is it 
provides a land-based portion of the strategic triad, it 
presents the enemy an intractable targeting problem, it gives 
you the most responsible leg of the triad, and it provides 
capabilities that complement the other two legs.
    Mr. Bishop. I certainly hope we move forward with that for 
a whole bunch of reasons.
    I don't know to whom to ask this next question, whether it 
is you or to the general. Can you get a better name than GBSD? 
I am sorry, and all due respect, GBSD sounds like a disease we 
are trying to solve. Coronavirus, GBSD is the new form of it. 
Can you please come up with a nicer name. Minuteman III is 
cute.
    Admiral Richard. Congressman, I will. But that is an Air 
Force decision. But Navy had the same thing, we used to call it 
sea-based strategic deterrent, and now we call it Columbia. We 
will do the same thing, I am sure, with GBSD.
    Mr. Bishop. General, do you want to take a stab at that 
one?
    General Raymond. Sir, I am in the Space Force.
    Mr. Bishop. Well, there is a Star Wars term coming up here.
    Thank you, Mr. Chairman, I yield back.
    General Raymond. I have heard them all.
    Mr. Cooper. Thank you.
    Mr. Carbajal.
    Mr. Carbajal. Thank you very much, Mr. Chair.
    Admiral Richard, as commander of STRATCOM, you generate the 
requirements for our nuclear forces. STRATCOM requirements then 
drive which warheads the NNSA life extends, maintains, and in 
what quantities. Correct?
    Admiral Richard. I originate the requirement. I don't have 
the authority to approve them. That is done up inside the 
Department of Defense, but basically, yes.
    Mr. Carbajal. Thank you.
    In the case of the submarine leg, we just completed the 
life extension of the W76-1 and the development of the W76-2. 
We are only a couple of years away from finishing the refresh 
of the W88. Both are expected to last into the late 2030s. Why 
is starting development of the W93 necessary in 2021? And why 
was it moved up 2 years?
    Admiral Richard. So Congressman, kind of, two points on 
that and this is what happens when you work in a resource 
constrained environment. Both of those life extensions that you 
referred to did not life extend the nuclear explosive package 
inside those weapons, right, we simply didn't have the 
resources and the pit capacity to be able to do that. So we had 
to make a choice and so its life extensions were modest. So if 
you want to replace those weapons or life extend them in the 
thirties based on historical timelines we need to start now. 
And that is why the W93 is in the program this year.
    So you are asking--your second question really gets into 
NNSA's budget submission, which I don't have complete 
visibility on. But what I will note on the fiscal year 2021 is 
that is the first time where we have synchronized the 
Department of Defense's budget request along with the NNSA.
    So they do a piece of it and then the Navy, or I am sorry 
the DOD has to marry that up. So we have synchronized them in 
this budget submission and it is also designed to give us time 
so that we don't simultaneously have all three programs 
starting at the same point in the late thirties.
    Mr. Carbajal. Thank you. To that end, what is the plan 
regarding the other warheads on the submarine force? And will 
one of them be retired?
    Admiral Richard. See, I think this is the best part about 
the W93. Again it is another thing that just makes me proud to 
be an American. Right? One, it is going to wind up initially 
being a third warhead and we do have to get through the design 
piece of it. But it gives us an opportunity. Remember, part of 
where my requirement is coming from is that the ballistic 
missile submarines that we have today have 20 tubes, Columbia 
has 16. Right? And so I will need capabilities that will 
address the fact that we don't have as many tubes in the new 
class of submarines and the overall number of warheads is going 
down. So we have an opportunity here to address the imbalance 
between the 76-1s and the W88s. It will not raise the stockpile 
numbers. Let us finish the design, we might even be able to 
lower it. And then either do that and leave it as the third 
weapon or potentially make it a replacement for one of the two 
that we have. We just need to get through the work.
    Mr. Carbajal. Thank you. Let me continue. Secretary Esper 
told us yesterday in the full committee hearing that he hopes 
to engage soon on the New START [Strategic Arms Reduction 
Treaty] extension. I have a couple of questions. Do you share 
General Hyten's view which he testified to last year that 
insight into Russian forces gained from New START is, quote 
``unbelievably important'' end quote? If New START expired on 
February 5, 2021, with no follow-on agreements, would your job 
be easier or harder?
    Admiral Richard. So in general, Congressman, I testified to 
this before, I support any arms control agreement that enhances 
the security of this Nation. General Hyten was correct, right, 
that New START does provide a level of insight, and it is a 
confidence building measure, Russia has largely been compliant 
with it. It does set a limit on the number of strategic weapons 
they have. All are benefits.
    But what it doesn't do is account at all for a class of 
thousands of weapons that Russia has. They are developing new 
weapons systems that are not covered by the treaty that are 
also threats to us and it is a bilateral treaty.
    My best military advice would be I would like to have all 
of that. That would make my job the easiest.
    Mr. Carbajal. Thank you.
    And lastly, General Raymond, being that I have Vandenberg 
Air Force Base in my district, what are the challenges and 
opportunities in standing up the Space Development Agency?
    General Raymond. The Space Development Agency [SDA] 
actually today works for OSD [Office of the Secretary of 
Defense] and R&E [Research and Engineering] and what it is 
designed to do is to go fast. I get asked frequently what keeps 
you awake at night and there is not a lot. But the thing that 
does is our ability to go fast. And SDA is designed to be able 
to go fast, to stay ahead of that threat, and largely looking 
at disaggregated architectures in space, which would be more 
resilient.
    Mr. Carbajal. Thank you. Mr. Chair, I yield back.
    Mr. Cooper. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General Raymond, General Hyten has talked about the all-
domains operations being the biggest key to our entire budget 
in the future, and our ability to compete with a global 
competitor in the near future at all levels. What role does 
Space Command play in working that problem? And just to the 
point you just now made, how are we going to balance advocating 
to deal with emerging threats while at the same time try to 
deal with present threats?
    General Raymond. First of all, Congressman Rogers, the 
Space Command plays a critical role in it. The J is joint and 
we are part of that joint team and all-domain is space.
    What you will hear referred to as JADC2, Joint All-Domain 
Command and Control, it is the connective tissue. It is the DNA 
that brings the full weight of the joint force together to 
provide advantage for our Nation against any adversary.
    A lot of work that we have done, and I know we have 
testified in front of you before, on enterprise space battle 
management, was built with this in mind. And so we use open 
standards, open architectures, unified data libraries to have 
data more easily--not just among us but also our allies. So we 
are playing a critical role on that.
    On the balancing near term and far term, it is a unique 
position I am in. As a combatant commander I have a 3-year look 
if you will. As a service chief I am looking long. And as you 
look at the budget that we submitted in my Space Force hat it 
is this balance of making sure we are not taking too much near-
term risk by getting to the future faster.
    Mr. Rogers. Great. Admiral Richard, first, Roll Tide.
    Admiral Richard. Roll Tide.
    Mr. Rogers. We want to get that on the record for the 
benefit of General Raymond and Chairman Cooper.
    Mr. Cooper. We had hoped to avoid that.
    General Raymond. Go Tigers.
    Mr. Rogers. Admiral Richard, in your opening statement, you 
referred to the increase in the Russian and Chinese nuclear 
stockpiles. China you expect to double their stockpile within 
the next decade and Russia you expect a sizable increase in the 
near future. Does our current program of record and 
modernization expand our nuclear forces?
    Admiral Richard. Congressman, no.
    Mr. Rogers. Okay. A few weeks ago the New York Times 
column, or a New York Times column, summed up the budget's 
investment in nuclear modernization by saying, quote, ``the 
President's spending proposal requests money for a new arms 
race with Russia and with China and restores nuclear weapons as 
a central to military policy'' close quote. Truth is the budget 
does actually the opposite, doesn't it?
    Admiral Richard. Congressman, that is correct.
    Mr. Rogers. In your testimony you speak a lot about the age 
of our current systems and that we have no margin as we move 
forward with these programs. Do you have enough funding in this 
year's budget request for nuclear modernization programs and 
does the NNSA?
    Admiral Richard. Congressman, the short answer is yes, I 
was pleased with the priority the Department placed on it. You 
heard our Secretary and Chairman testify to that yesterday. So 
yes, in the main they are fully funded.
    Mr. Rogers. And if you take the warhead modernization 
program from NNSA on one hand and you take the triad 
modernization of delivery systems on the other hand are these 
numbers satisfactory to keep those two things integrated over 
the next several years?
    Admiral Richard. Congressman, for this budget, yes.
    Mr. Rogers. Excellent. And finally, are these investments 
we are making right now, do they plan for the future threat?
    Admiral Richard. Absolutely, sir.
    Mr. Rogers. Thank you, Mr. Chairman. I yield back.
    Mr. Cooper. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I had the chair moved because it was the tallest chair in 
front of me and I don't know why it ended up in front of me. I 
think Garamendi put it there.
    So thanks for coming. I have a couple of questions for all 
of you, but I want to start with Mr. Anderson--Dr. Anderson. On 
the 25th, General Walters testified to SASC, the Senate Armed 
Services Committee, saying he was in favor of a flexible-first-
use policy. Does the Department have a definition of flexible-
first-use policy? And is that U.S. policy for nuclear use?
    Dr. Anderson. So the question of whether to adopt a no-
first-use policy has come up periodically over quite some 
period of time and our approach has been not to adapt a no-
first-use policy. And there are essentially several reasons for 
that. One is if we were to adapt, adopt a no-first-use policy, 
we think it would undermine the credibility of our nuclear 
deterrence. It would undermine our security guarantees we----
    Mr. Larsen. I understand all of those arguments. I think we 
all understand all those arguments. So what is a flexible-
first-use policy if not a first-use policy or a no-first-use 
policy?
    Dr. Anderson. So as outlined in our Nuclear Posture Review, 
we reserve the right to use nuclear weapons in extreme 
circumstances as a first use.
    Mr. Larsen. All right, okay. I wanted to get that clear. 
That sounds like a first-use policy, not a flexible one or not. 
The language just didn't sound right.
    So I wanted to talk to Admiral Richard and General Raymond. 
Now that we set up SPACECOM [United States Space Command], and 
maybe you can give us some--enlighten us here and maybe talk a 
little bit later. Are there seams between your commands? Have 
you found them yet? How are you working to close those to 
tighten up those seams?
    Admiral Richard. Congressman, let me start, as the proud 
parents of U.S. Space Command, given that all of General 
Raymond's responsibilities came from U.S. Strategic Command, I 
am pleased in that not only do we not have seams, we are 
actually serving the Nation better. Right?
    General Raymond can get into detail about his sensor 
manager responsibilities, but he is actually serving missile 
warning better than we used to do by bringing in his other 
responsibilities in missile defense and space situational 
awareness.
    So it is anything but seams; we are actually performing 
better as a result of what I think was a wise decision by the 
Nation and the Department
    Mr. Larsen. General Raymond.
    General Raymond. I would agree. We have been very reliant 
on STRATCOM. When we stood up we took part of Space Command, 
initial core was about 120 folks that came from U.S. Strategic 
Command. We have a team embedded in the command today to make 
sure that if there were any seams that they are glossed over. I 
am not aware of any seams. I think we have actually--our 
ability to work together has been enhanced.
    Mr. Larsen. Yeah. Okay.
    Admiral Richard, if you are the parent I would note that 
Mr. Cooper and Mr. Rogers may be the grandparents. I had to put 
you somewhere in the family tree. I am giving you credit.
    General Raymond and Dr. Anderson, have you thought through 
the role and the increasing reliance on commercial capabilities 
as well as partnering? And are you looking at it any 
differently than we looked at it before, before Space Command.
    General Raymond. We are absolutely relying on commercial 
space capabilities today. And I think we are going to be more 
reliant on it in the future. If you look there is a terrible 
word they use in the space business, but there is an explosion 
of commercial space and we need to be able to leverage that.
    They have a business model that goes faster. They have 
operational capabilities that are relevant, and we are eager to 
develop an architecture that capitalizes on that. So I would 
suggest that we will be doing a lot more commercial work than 
we have done in the past.
    Mr. Larsen. Where does that sit in your priorities of life?
    General Raymond. Partnerships is one of the top priorities 
of both U.S. Space Command and the Space Force. And I would say 
there are several partnerships that are critical to us, 
commercial being one, intelligence community being two, and 
allies being three.
    Mr. Larsen. Dr. Anderson.
    Dr. Anderson. So I would certainly second that commercial 
space activities are vitally important and that they will in 
fact grow going forward and into the future. And I think this 
has been widely acknowledged not only with the statements from 
the Department of Defense, but also our National Security 
Strategy, which is signed by the President of the United 
States. It talks about the U.S. leadership role in space and 
also the need for the United States to consider unfettered 
access to and vital operate--and freedom to operate in space to 
be of vital interest.
    Mr. Larsen. Yeah. Okay. Thank you.
    Mr. Cooper. I thank the gentleman.
    Ms. Cheney was going to be recognized next but it is my 
understanding that she is withholding her questions for the 
closed session. I appreciate that.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And thank you to all 
of you and I say congratulations as well. You probably know 
that we were having some concerns and questions in Armed 
Services Committee over the last 2 days. And I wonder if you 
could discuss with us the unplanned increase in the NNSA. I 
understand that that is necessary for modernization. Is that 
correct? But what drove this increase? And where did you all 
weigh in on that?
    Admiral Richard. Ma'am, one, in terms of the history I 
don't know how to characterize it or not characterize it as an 
unplanned increase. The requirements that I have asked for in 
terms of for my needs for the nuclear delivery systems have not 
changed.
    And so this is certainly what is necessary for us to 
recapitalize the weapons that I have and the weapons complex.
    Mrs. Davis. Did anybody else want to comment on that? And 
where is that funding as it exists prior to the increase?
    Admiral Richard. Ma'am, I am not sure I understand your 
question.
    Mrs. Davis. Just wondering whether there are unspent 
dollars in those accounts that----
    Admiral Richard. Ma'am, I would have to defer your question 
to NNSA.
    Mrs. Davis. Okay. Thank you.
    Talk a little bit about the strategic stability that 
hypersonic weapons brings. As you know, there are different 
points of view on this in terms of risks, benefits, the 
messages that we send. Do you consider them strategic weapons?
    Admiral Richard. Hypersonic? Yes, ma'am.
    Mrs. Davis. And they get us to the fight faster?
    Admiral Richard. No. Again----
    Mrs. Davis. Or how would you talk about----
    Admiral Richard. This is just another capability. And 
again, I think it is important to remember that our competitors 
chose on their own initiatives to add this. Right? In the end 
to do strategic deterrence, the fundamental equation has not 
changed. Right?
    For whatever action the adversary considers can I either 
deny their aim or impose a cost greater than what they see. 
This changes that calculus. And what I have to do is to make 
sure that I can make it hold such that the benefit of restraint 
still continues to outweigh the benefit of action.
    Mrs. Davis. Can we integrate these technologies, hypersonic 
technologies with our NATO [North Atlantic Treaty Organization] 
partners?
    Admiral Richard. Ma'am, again, it depends on whether you 
are talking about defensive technologies or warning 
technologies and or our own use of those. In both cases, 
though, the answer is yes, we can integrate those.
    Mrs. Davis. Admiral Richard, you know China's arsenal of 
nuclear warheads is something on the order of one-tenth of what 
Russia's are? Is that correct?
    Admiral Richard. For this hearing, yes, ma'am.
    Mrs. Davis. So in terms of our priority, over the next 5 
years, what would that be then in terms of maintaining and 
pushing to expand limits on Russia's nuclear arsenal? How would 
you describe that?
    Admiral Richard. Well, I would describe it, one, ma'am, 
where China is today is not the trajectory that they are on. 
Right? So we must make sure we understand where they are going. 
Their actions are inconsistent with their stated policy both no 
first use and what you derive as a minimum deterrence strategy. 
I guess in the end what I would offer is I don't have the 
luxury of picking which threat to this Nation I am not going to 
defend.
    And so I have to look at the collective of what we face and 
make sure that for each of those individual competitors I can 
make that equation hold for all of them all of the time.
    Mrs. Davis. Anybody else want to weigh in on that? Do you 
agree?
    General Raymond. Yes, ma'am.
    Mrs. Davis. Okay. Thank you.
    And our European allies, how are they perceiving the New 
START treaty and the Open Skies Treaty now? Do we need to--how 
are you assessing what they have to say about that and what if 
we withdraw from the treaty, do we have other appropriate 
agreements in place to ensure that we will be notified of 
flights over our assets?
    Admiral Richard. Ma'am, one, if we withdraw from the treaty 
they wouldn't be able to do flights over our assets. In terms 
of the--New START itself has not entered in very much into my 
conversations so I am strictly referring to U.S. Strategic 
Command. And so I am confident that under any circumstances 
right now I can continue to provide extended deterrence and 
assurance commitments to our allies.
    Open Skies, I am probably not the best person to answer 
your question in terms of not having direct responsibility. But 
I will say that Open Skies provides benefit to our allies. It 
does not provide very much direct benefit to my command 
individually. And again there is a confidence building aspect 
to it that is favorable.
    Mrs. Davis. I think overall, I think we could--we certainly 
would be very concerned and they would be very concerned if we 
do something different.
    Admiral Richard. Yes, ma'am. I think they would also be 
equally concerned if one party doesn't comply. So that is the 
political decision that the Nation will face.
    Mrs. Davis. Okay. Thank you very much.
    I yield back.
    Mr. Cooper. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and thank each of you 
for your service. And indeed what a critical time of 
transitioning to great power competition, but existential 
threats to American families. As you were citing decisions made 
decades ago that have had a positive impact, we look forward to 
working with you to have a positive impact.
    And indeed, Admiral, I am grateful to be with you and I am 
a very grateful Navy dad. My Navy doctor son served in Iraq, 
but I am also an Air Force uncle, with a nephew that served in 
Iraq. So thank all of you for your service.
    Admiral, modernizing our nuclear forces and associated 
infrastructure is necessary to defend the homeland promoting 
peace through strength. How will the continued atrophy of our 
strategic nuclear forces impact STRATCOM's ability to deter 
against strategic attack?
    Admiral Richard. Well, it would be harmful to it, Senator, 
in short. And a good example is the submarine. All right? Take 
the Ohio-class submarine; again, all of these things makes me 
proud to be an American. You thought you were going to get 30 
years out of it from those wise decisions you talked about. We 
actually got 42. Right? What a credit to the people that 
designed it, built it, maintained it to this point.
    But they will start going away in 2027 and there is nothing 
that can change that. And without that, I start to lose 
survivability in that leg of the triad.
    Mr. Wilson. And having grown up in the holy city of 
Charleston, I remember the Nautilus submarines going back and 
forth and the consequence of that and that is peace through 
strength with the implosion of the Soviet Union. So what you 
have done is so important.
    And Dr. Anderson, the President requested at full funding 
for the plutonium sustainment through both this year and last 
year to accommodate 80 pits per year by 2030. I appreciate this 
initiative and want my colleagues to understand how important 
this is.
    If pit production is underfunded, how does this affect our 
national security over the next 10 to 15 years?
    Dr. Anderson. So as you suggest, the pit production is 
crucial to our national security and this is something that we 
have set these targets, in fact 30 by 2026 and 80 by 2030. And 
this is absolutely essential to ensure that our nuclear arsenal 
remains safe, secure, and reliable for deterrent purposes.
    I have had the good fortune to visit both facilities, 
Savannah River and also Los Alamos, where these pits are going 
to be produced. And I was very favorably impressed by the 
workforce there, and the professionalism, and the great 
seriousness with which they take this task. And this is 
absolutely crucial to maintain the effectiveness and the 
credibility of our nuclear deterrence.
    Mr. Wilson. And additionally, Dr. Anderson, the nuclear 
modernization efforts are so important. And thank you again for 
visiting the Savannah River Site firsthand. My constituents are 
very supportive in your activities. And in fact on November the 
28th this year we will be celebrating the 70th anniversary of 
the Savannah River National Laboratory. And we are very, very 
grateful.
    And how important are the nuclear modernization efforts of 
the Department of Defense? And what risk do we incur by not 
adequately funding these programs?
    Dr. Anderson. As Admiral Richard has emphasized earlier, 
and I would certainly agree that these modernization programs, 
these recapitalization programs are absolutely essential to our 
national security. The legs, the triad, the existing legs are 
old and they are getting older. And to avoid what would in 
effect be de facto disarmament, they need to be recapitalized.
    As stated before, we are not growing the overall nuclear 
arsenal, the number of warheads. These are one-for-one 
replacements with the warheads. And the legs of the triad that 
are being modernized with the Ground Based Strategic Deterrent, 
the Columbia submarine, and the B-21 Raider will make these 
systems more reliable, more survivable, more resilient, and 
therefore more credible.
    So as Secretary Esper and the Chairman and many other 
senior leaders have stated, this is our highest priority in the 
Department.
    Mr. Wilson. Again, thank each of you for your serving, and 
we look forward in a bipartisan manner to work with you 
together in the future. I yield back.
    Mr. Cooper. Thank you.
    Ms. Horn.
    Ms. Horn. Thank you, Chairman, and thank you all for being 
here today. I want to turn the conversation to national 
security space. So General Raymond, although I don't have the 
problem with the tall chair that Rick did, I do have a problem 
with being short so hopefully you can see me.
    Turning the conversation to space and the importance of the 
work you were doing. I have a few things that I would like to 
hear from you on. First, I think it is clear that we cannot do, 
you cannot do your jobs, none of you can do your jobs and 
protect our forces without our space assets. Our national 
security space assets are absolutely integral. And as we have a 
growing number of adversaries that are coming into this and 
making significant investments.
    I would just like to start with your assessment, General 
Raymond, of what the actual threats look like to our national 
security space environment and then I will follow up with some 
more specifics; and following on that too, the most direct ways 
that we are addressing this threat.
    General Raymond. First of all, thanks for the question. 
Clearly space is a contested domain. There is a full range of 
threats. And if you will allow me, I will lay out the full 
range at this level and I will be happy to go into much more 
detail in closed session.
    But as I mentioned in my opening comments, the scope, 
scale, and complexity of these threats are real today. 
Everything from reversible jamming of satellite communications 
and GPS [Global Positioning System] satellites, to directed 
energy, to cyber threats, to on-orbit activities--including the 
one that I just talked about publicly where Russia has launched 
a satellite, has released another satellite in close proximity 
to a U.S. satellite, which is concerning--to directed ASATs 
[anti-satellite weapons] where China shot down one of its own 
satellites in 2007.
    So that full scope and scale is why U.S. Space Command and 
the United States Space Force are both so important.
    Ms. Horn. I agree. And I think the next question is, and 
there is a lot we can't get to in this session, but just 
establishing a foundation. I chair the Space and Aeronautics 
Subcommittee in Science, Space and Technology so with that view 
of both our national security space environment and our civil 
space environment, space situational awareness is another 
critical factor.
    And right now that falls to the Air Force essentially, for 
all of the different aspects of space situational awareness, 
which is something that we need to address. So in terms of your 
capability as you stand up Space Force, as you have been 
working with Space Command, is addressing and taking space 
situational awareness on a larger scale out of your domain, is 
that something that would be helpful, useful? Can you speak to 
that if we were to move those responsibilities?
    General Raymond. Move them to the Space Force?
    Ms. Horn. No. Having another entity and/or group that would 
address non national security space related situational issues.
    General Raymond. I understand. So space situational 
awareness is foundational to everything that we do in space. 
And in fact I have changed the terminology that we are using in 
it. And I am talking about space domain awareness rather than 
space situational awareness because we have to have a deeper 
understanding. It is critical that our national security space 
experts are focused on that deeper understanding.
    Today we serve as the space traffic control for the world, 
the Space Force does, and I don't need to do that in my 
opinion. You have better things for me to do than that.
    We would really like to transfer that over to the 
Department of Commerce. We are working very closely with the 
Department of Commerce to do that. We are still going to 
maintain all of our systems to have that situational awareness 
and Space Command awareness. But our folks don't need to be the 
people that open up the Rolodex and make notifications.
    Ms. Horn. This is a longer conversation but I think 
important to establish. And finally, more in closed session I 
know, but I'd like to know what the biggest challenges that you 
are facing in standing up Space Force and understanding all of 
these varying threats right now.
    General Raymond. We have great opportunity in standing up 
the Space Force. We have challenges, but I think the 
opportunities are even greater. And I appreciate, as I said up 
front, the work that this committee did. The law gives us a lot 
of flexibility to build this with a clean sheet of paper.
    This is a start-up company. And we have an opportunity to 
not be tied to the past and build a service that is purpose 
built for this domain. Two challenges that I see. One, we have 
to be bold and we need to make sure that we are thinking bold 
enough. And two, as we are bold, we are going to need support 
to get those initiatives through.
    Ms. Horn. Thank you. I yield back.
    Mr. Cooper. Thank you.
    Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for being here today. We 
appreciate it.
    Admiral Richard, you testified 2 weeks ago that the New 
START Treaty provides STRATCOM with a vital threat assessment 
for Russia's strategic nuclear arsenal and that it provides 
transparency and confidence-building measures that are good for 
deterrence. So do you support an extension of the New START 
treaty?
    Admiral Richard. So Congressman, that is exactly what I 
said and it is that it gives us insight in terms of the threat 
levels. Right? It puts a limit on the threat levels.
    Mr. Moulton. And do you think it is a good idea, a 
realistic idea, to include China in some sort of trilateral 
agreement in place of START? In place of a New START, rather?
    Admiral Richard. What China--what I would love to be able 
to convince China of is the benefits of arms control in 
general. Right? Forget the numbers. Right? The idea----
    Mr. Moulton. Right but just to be clear, the numbers right 
now are that China has about a tenth the number of weapons as 
Russia or thereabouts, maybe around somewhere 300. So we don't 
exactly want a treaty that equalizes numbers and therefore 
encourages China to bring its numbers up.
    Admiral Richard. Right. I would like to encourage China to 
understand the mutual benefit of arms control, the benefit to 
China of arms control, confidence-building measures, 
transparency, avoiding miscalculation. That is what I would 
like to see added to the table.
    Mr. Moulton. Great. Thank you, Admiral.
    I want to move on to some questions about hypersonics 
because I think it is incredibly important that we counter the 
emerging technologies from Russia and China. But we also just 
have to be careful about how we are doing that. One of the 
things that Russia and China are doing very smartly is they are 
not countering all our technologies, they are trying to 
leapfrog us in certain areas. And fundamentally, we will have a 
closed session to ask some more detailed questions. But in this 
open session, so that people understand, are hypersonic weapons 
faster than our existing ballistic missiles?
    Admiral Richard. Congressman, to your point actually a 
hypersonic weapon is slower than a ballistic missile.
    Mr. Moulton. It is actually slower. Right. So, another 
question, is our existing missile defense program designed to 
protect us from an ICBM attack from Russia?
    Admiral Richard. By policy our existing missile defense 
systems are designed to protect us from rogue nations, and 
intentionally not designed to interfere with either Russia or 
China's strategic deterrent.
    Mr. Moulton. Right, because the point is we just don't have 
enough interceptors to counter the type and number----
    Admiral Richard. It is not only a technically infeasible 
cost-imposing piece, but there are significant strategic 
stability concerns if you were to go down those lines.
    Mr. Moulton. Right. So essentially what does protect us is 
this doctrine of mutually assured destruction.
    Admiral Richard. I wouldn't call it mutually assured 
destruction, sir. That is what it was back in the Cold War. I 
have an ability to impose a cost on them that is greater than 
that which they seek.
    Mr. Moulton. So our terminology has become more polite 
since the Cold War. But----
    Admiral Richard. I will----
    Mr. Moulton [continuing]. Essentially what they can expect 
is that we will respond in kind. If they shoot 100 missiles our 
way, we are going to be able to shoot 100 missiles back at 
them.
    Admiral Richard. Oh, I might not necessarily recommend that 
at all, sir. I will simply recommend options that will provide 
a cost that they will find unacceptable relative to what they 
are trying to gain.
    Mr. Moulton. Fair enough. So what do we do if Russia or 
China launches a hypersonic missile?
    Admiral Richard. I do the same--and I should be very clear, 
I don't have direct operational responsibility for the missile 
defense system over North America or in any other theater. I do 
have worldwide advocacy responsibilities for that. We do the 
same thing that we do for any other threat to North America 
which is step one I have to characterize it. I have to 
understand what it is, how big is it, what its threat----
    Mr. Moulton. How do you characterize that because when a 
hypersonic missile is launched--I mean look, if Russia launches 
a whole bunch of ICBMs, we know exactly what is coming at us, 
we know where they are going and when they are going to land. 
If they launch one singular hypersonic weapon, Russia or China, 
we don't know what warhead it is carrying, we don't know where 
it is going to land, because we can see it launched but we 
don't know where it is going to go.
    Admiral Richard. Congressman, I am it not trying to argue 
with you because you are absolutely correct. We have certain 
HGV [hypersonic glide vehicle] systems today, because our 
systems were not designed against them, do challenge us. It is 
not that we have no ability to characterize the threat to this 
Nation. The size of the raid alone starts to give me 
information as to what it might be able to do. We already don't 
have the ability to characterize the payload on any inbound 
weapon system to the U.S., hypersonic or not.
    Mr. Moulton. Well, we have a pretty darn good idea what is 
coming at us if we get an ICBM attack. And this is my point, is 
just--we only have a few seconds left, but I am very concerned 
that these weapons are strategically destabilizing and I think 
that we need to carefully consider that as we determine what 
our appropriate response to China and Russia's development of 
hypersonics is.
    Admiral Richard. Congressman, I would agree with you 100 
percent but what I want to assure you is is that I can still 
today with the threats that we face make sure that there is 
adequate deterrence to defend----
    Mr. Moulton. I understand that and I appreciate you 
emphasizing that point. Thank you, Admiral.
    Mr. Cooper. Thank you.
    Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    General Raymond, you have previously highlighted to this 
committee the importance of modernizing our Nation's fleet of 
national security launch vehicles in a timely manner. As the 
Air Force's outline the goals of the national security space 
launch phase two launch procurement are to encourage 
competition, assure our access to space, and end our reliance 
on Russian engines. You have also outlined that two providers 
is the right number of providers, based on the Air Force's past 
experience.
    So two quick questions. Can you please provide this 
committee with an update on the program and second, are you 
still on track to make awards this year?
    General Raymond. All three of those fundamental tenets--
assured access to space, increase competition, get off the RD-
180 engine--are on track and we are on track to make an award 
this summer.
    Mr. Brooks. All right. Thank you.
    Admiral Richard, in your written testimony, you highlight 
the need for a concerted effort to expand and improve existing 
capabilities for both homeland and regional missile defense. 
Aside from technology development efforts to field new 
capabilities 10 years down the road as part of the next-
generation interceptor program, what investments to improve the 
current homeland missile defense system are being made?
    Admiral Richard. So, Congressman, one, I am responsible for 
the requirements, right, and the requirements that we have 
asked to provide, I think, are very sound in terms of our 
ability to defend against a rogue nation threat. And I think 
you would be pleased in the budget submission in terms of the 
additional things that we are asking for.
    My biggest priority, as the commander of STRATCOM, gets 
after improved warning capability that provides me the ability 
to posture my forces, and I would look to where we are going 
with our space-based sensing layer and then defer to General 
Raymond to give you more details on that.
    General Raymond. Yeah. It is going to be absolutely 
critical that we develop a missile defense layer in space to be 
able to get after that warning challenge that you articulated.
    Mr. Brooks. This question is for General Raymond, but if 
Dr. Anderson or Admiral Richard want to chime in, please feel 
free to do so. There is great interest around the country as to 
where this Space Force is going to be located. There is also 
great interest with respect to the battle command portion of 
the Space Force.
    What are the criteria for the location of the battle 
command, and in particular, how much focus is there on whether 
that ultimate site ought to be hardened in order to best stay 
functional when the missiles fly and the nuclear bombs go off?
    General Raymond. So there is actually--let me--two parts, 
as you said. There is a Space Force and a Space Command. Space 
Force, like the Army, Navy, Air Force, Marines, is going to be 
headquartered in the Pentagon. That is where all the services 
are.
    Mr. Brooks. All the top brass will be in the Pentagon. That 
makes sense.
    General Raymond. That is where the--so the question that is 
being analyzed right now is where does U.S. Space Command 
reside. Today that U.S. Space Command resides in Colorado 
Springs, so that is where the Joint Force Space Component 
Command was when we stood up. The Air Force is responsible to 
do that basing decision. They are going through the analysis as 
we speak. And sometime later this year, early next year, they 
will make a decision on where that should be. There is a whole 
list of criteria.
    The Air Force just announced everything from schools to 
licensing for spouses, all the way up through mission 
workforce. I mean, there is a whole laundry list, and I would 
be happy to come back to you and share that list with you.
    Mr. Brooks. How much weight is given to how hardened the 
site can be for the location of the battle command?
    General Raymond. Yeah. So that would be linked in under the 
mission, make sure that you can--you have an ability to conduct 
a mission, and we do that in a variety of ways. And, again, in 
a closed session I could give you more details.
    Mr. Brooks. All right. Thank you, sir.
    Anyone else wish to add anything, Dr. Anderson, Admiral 
Richard?
    Admiral Richard. No, sir.
    Dr. Anderson. No, sir.
    Mr. Brooks. All right. Thank you, Mr. Chairman.
    Mr. Cooper. Thank you.
    Now the patient Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, for having this 
hearing. Thank the three of you for what you do to protect our 
country.
    General Raymond, I know establishing a new service must be 
a daunting task. In fact, I commiserate with you. You have to 
move from Colorado to Washington here anytime now, so good luck 
with that move. But I applaud you for your leadership so far in 
this endeavor. Among your challenges is to develop warfighting 
doctrine, build a force around that doctrine, and educate space 
professionals.
    So on the education aspect, you have plans to establish a 
space training center of excellence?
    General Raymond. Thank you, Congressman Lamborn. I think 
one of the things--first of all, standing up a Space Force is 
really cool, and it is exciting, and I am honored and 
absolutely privileged to be a part of this. I have got a great 
team.
    I think there is several things that are foundational to a 
separate service. One of them is you have to be able to develop 
your people, and you have to be able to develop your doctrine. 
I think those two things are foundational to a separate 
service. So we are doing the organization work as we speak to 
plan how we will do that. My expectation will be that we will 
have an organization that is focused on training and 
development and doctrine.
    Mr. Lamborn. And as a parenthetical, I know that that 
technical training would be different from and build on the 
academic and scientific engineering training that people in 
this Space Force would get at a place like the Air Force 
Academy in Colorado Springs.
    General Raymond. Yeah. So where our expectation is, and 
this--you know, I am--I am telling you the honest to goodness 
truth as I know it today. Where my expectation is as we begin 
the development of this is that we have a great opportunity 
here.
    We just published 30--and advertised 30 jobs that were 
opened at the Pentagon for the Space Force. I think the number 
was, and don't quote me on this, like 5,000 people applied, a 
significant number. We have--this is generating interest across 
the Nation. It is generating interest in our colleges, in our 
recruiting things.
    But I think what will end up happening is that the Air 
Force will bring in the human capital, raw material, if you 
will. They will recruit. We will have a space-focused part of 
that recruiting, but the recruiting machine will leverage the 
Air Force to keep this light, lean, and mission focused. We 
will leverage the Air Force Academy to build. Also we will 
leverage JROTC [Junior Reserve Officer Training Corps] and OTS 
[Officer Training School]. And then once folks get commissioned 
or enlisted in the service, the Space Force will take them and 
develop them into the space warfighters that they need. That is 
where our head is today.
    Mr. Lamborn. Excellent. And will National Security Space 
Institute be a part of this?
    General Raymond. Absolutely. They are a fundamental part of 
what we do today. They teach Space 100, 200, 300, the 
professional development course, and they will be built into 
that.
    Mr. Lamborn. Excellent. Do you need anything more from us? 
We are working on the NDAA [National Defense Authorization Act] 
as we speak. Funding authorities, et cetera?
    General Raymond. Yes, sir. So we are--one of the tasks that 
came out of the last NDAA was to come back with a legislative 
proposal for next year's.
    One of the things that the law said today was that this 
started out by taking folks and missions and capabilities from 
the Air Force. The Department's vision is that we will broaden 
this to other services in the future.
    Mr. Lamborn. Okay. Excellent.
    Changing gears a little bit, someone told me that there are 
elements of our Nation's civil space program, which obviously 
includes manned space travel, that carry over into our national 
defense space program. These elements are said to add 
unnecessary paperwork and red tape to national space 
procurement. Are you aware of any spillover from civil to 
national space procurement of this nature?
    General Raymond. No, sir, I am not. I can do some digging 
and get back to you. We do have a partnership with NASA 
[National Aeronautics and Space Administration], a strong 
relationship with NASA. We support the launch operations when--
and this year we will start launching humans again. NASA will 
start launching humans again out of Cape Canaveral. We work--
we--in fact, we developed an internship program for some 
training opportunities, but I am not aware of any spillover on 
acquisition and things. But I will come back to you.
    [The information referred to was not available at the time 
of printing.]
    Mr. Lamborn. Okay. Thank you. Please do.
    And I will save the rest of my questions for the closed 
session, and I yield back.
    Mr. Cooper. Thank you. The open session of the subcommittee 
will adjourn, and we will reopen almost immediately in 2337 for 
the closed session. Thank you.
    [Whereupon, at 4:10 p.m., the subcommittee proceeded in 
closed session.]

     
=======================================================================

                            A P P E N D I X

                           February 27, 2020

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2020

=======================================================================

 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
                              [all]
</pre></body></html>
